Supreme Court, U.S.
FILED

NO.

AUG 1 8 2021

21-2 H

OFFICE OF THE CLERK

IN THE

REfHE mmz m

she

M3<zza

leases

ANTHONY CARTER,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.

077 PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF CRIMINAL APPEALS OF TEXAS

PETITION FOR A WRIT OF CERTIORARI

ANTHONY CARTER
PETITIONER
TDCJ No. 02212082
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

i

QUESTION PRESENTED
In 2015, the Texas Legislature made seeping revisions to how
"controlled substances" are defined in the drug possession stat­
utes. Before the revisions, the statute implicated in this case—
Section^:481.1031 of the Texas Health & Safety Code, which defines
a Penalty Group 2-A substance—was a list of prohibited substances.
The problem, however, was that chemists would slightly alter one
of the listed substances, making it technically no longer the pro­
hibited substance but nevertheless a dangerous one. With the leg­
islature only meeting every two years, Texas lawvwas simply not
able to keep up with clandestine chemists. The 2015 revisions were
the legislature’s response. They did away with the list of drugs,
choosing instead to list several chemicals and detailing which
molecular structures of the various listed chemicals (as they re­
late to one another) are prohibited. Consequently, Section 481.1031, is now, by necessary design, extremely complicated. In a
published opinion, the court below inferred a substance met the
molecular structural requirements of Section 481.1031 even though
(by the court’s admission), there was no direct evidence of that
molecular structure in the record.
This case, therefore, presents the following question:
In a sufficiency analysis under Jackson v. Virginia, 443 U.S.
307 (1979), may a reviewing court uphold a conviction where the
offense is defined by technical elements beyond the understand­
ing of an ordinary factfinder if no evidence on the elements was
presented at trial?

i

PARTIES TO THE PROCEEDINS BELOW
This petition stems from a discretionary review proceeding in
which Petitioner, Anthony Carter, was the Appellant-Petitioner be­
fore the Court of Criminal Appeals of Texas. Mr. Carter is a pris­
oner who was convicted of possession of a controlled substance
with the intent to deliver in the 137th Judicial District Court
of Lubbock County, Texas, and he is in the custody of the State
of Texas. The State of Texas was the Appellee before the Court of
Criminal Appeals of Texas.
Mr. Carter asks that the Court issue a Writ of Certiorari to
the Court of Criminal Appeals of Texas.

RULE 29.6 STATEMENT
Anthony Carter, Petitioner, is not a corporate entity.

ii

TABLE OF CONTENTS
Page
Question Presented.............................

i

Parties to the Proceedings Below

11

Rule 29.6 Statement

11

Table of Authorities

IV

Petition for a Writ of Certiorari

1

Opinions and Orders Below

1

Jurisdiction

1

S tatement: of the. Case. . . .

2

Reasons for Granting the Petition

3

Argument....................................................

4

Conclusion and Prayer for Relief.

11

Appendix A
Court of Criminal Appeals of Texas’ Opinion
Appendix B
Seventh Court of Appeals’t Memorandum Opinion
Appendix C
Judgment of Conviction by Jury

in

TABLE OF AUTHORITIES
Page

CASES
Carter v. State,

575 S.W.3d 892 (Tex. App:.-Amarillo: 2019)
Carter v. State,

S.W.3d

(Tex. Crim. App. 2021)

Jackson v. Virginia,

1,3,8
1,3
3,8,9

443 U.S. 307 (1979)

Boss v. State,

275 S.W.3d•512 (Tex. Crim. App. 2009)

8,9

Laster v. State,

543 S.W.3d 227 (Tex. Crim. App. 2018)

8,9

CONSTITUTION
U.S. CONST, amend. V

2

U.S. CONST, amend. XIV

2

STATUTES
28 U.S.C. § 1254(1)............................................

2

TEX. HEALTH & SAFETY CODE § 481.1031(b)(5)

2,5

iv

PETITION FOR A WRIT OF CERTIORARI
Petitioner Anthony Carter respectfully petitions this Court
for a writ of certiorari to review the judgment of the Court of
Criminal Appeals of Texas.

OPINIONS AND ORDERS BELOW
On March 31

2021, the Court of Criminal Appeals of Texas is­

sued an opinion affirming the Court of Appeals' memorandum opin­
ion. The March 31, 2021, opinion is published at Carter v'. '.State,
S.W.3d

(Tex. Crim. App. 2021), and attached as Appendix

On May 14

2019, the Court of Appeals for the Seventh Supreme

A.

Judicial District of Texas issued a memorandum opinion affirming
Mr. Carter:' s conviction and sentence. The May 14, 2019, memorand­
um opinion is published at Carter v. State, 575 S.W.3d 892 (Tex.
App.-Amarillo 2019), and attached as Appendix B.
On November 17, 2017, the 137th Judicial District Court of
Lubbock County, Texas, issued a Judgment of Conviction by Jury
where Mr. Carter was convicted of possession of a controlled sub­
stance, Penalty Group 2/2A, with intent to deliver over 400 grams,
and sentenced to 90 years' imprisonment. The November 17, 2017,
judgment is unpublished and attached as Appendix C.

JURISDICTION
The Court of Criminal Appeals of Texas had jurisdiction over
the petition for discretionary review under Rule 66 of the Texas
Rules of Appellate Procedure. The judgment of the Court of CrimT
inal Appeals of Texas was entered on March 31, 2021. This Court

1

has jurisdiction pursuant to 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution pro­
vides that "No person... shall...be deprived of life, liberty, or
property, without due process of law." U.S. CONST, amend. V.
The Fourteenth Amendment to the United States Constitution
provides that "No state shall make or enforce any law which shall
...deny to' any person within its jurisdiction the equal protection
of the laws." U.S. CONST, amend. XIV.
Section 481.1031(b)(5) of the Texas Health and Safety Code
states in relevant part:
(b) Penalty Group 2-A consists of any material, compound,
mixture, or preparation that contains any quanity of a nat­
ural or synthetic chemical substance... listed by name in
this subsection or contained within one of the structural!
classes defined in this subsection:
(5) any compund containing a core component substituted at
the 1-position to any extent, and substituted at. the 3position with a link component attached to a group A com­
ponent, whether or not the core component or Group A com­
ponent are further substituted to any extent, including:
Naphthoylindane;
Naphthoylindazole (THJ-018);
Naphthylmethylindene (JHW-171);
Naphthoylindole (JWH-018);
Quinolinoyl pyrazole carboxylate (Quinolinyl fluropentyl
flurophenyl pyrazole carboxylate);
Naphthoyl pyrazolopyridine; and
Naphthoylpyrrole (JWH-030).
TEX. HEALTH & SAFETY CODE § 481.1031(b)(5).

STATEMENT OF THE CASE
A jury convicted Mr. Carter of possession of a controlled
substance weighing 400 grams or more in Penalty Group 2-A. (9RR65). Later that day, the jury sentenced Mr. Carter to 90 years1
incarceration and a $100,000 fine. (CR44; 9RR156-57).
2

On direct appeal, following supplemental briefing ordered by
the court and oral arguemnts, the Seventh Court of Appeals af­
firmed Mr. Carter's conviction. Carter v. State, 575 S.W.3d 892
(Tex. App.-Amarillo 2019, pet. granted). Mr. Carter did not file
a motion for rehearing.
On petition for discretionary review, the Court of Criminal.
Appeals affirmed the court of appeals ruling. Carter v. State,
S. W. 3d:'

(Tex. Crim. App. 2019). Mr. Carter did not file a

motion for rehearing.

REASONS FOR GRANTING THE PETITION
In overruling the sufficiency claim raised by Mr. Carter, the
Court of Criminal Appeals of Texas has decided important federal
questions in a way that conflicts with relevant decisions of this
Court and has decided an important question of federal law, that
has not, but should be, settled by this Court.
The question presented is important, recurs frequently, and
is perfectly presented on this record. This Court should grant
certiorari to stop Texas 1^expansion of the assumptions permitted
by Jackson v. Virginia into the realm of the highly technical
area of molecular chemistry.
Background
Petitioner, Anthony Carter, was a successful Lubbock business­
man. He ran his business—a smoke shop—entirely in the public
eye. (4RR79; 5RR86, 131). He did everything a normal business
owner would do: He reported income, paid taxes, stocked inventory,
kept track of sales, had posted store hours, and deposited money
into his bank account. (5RR99; 6RR48-49, 169).
3

Mr. Carter was not, however, a chemist. When local law enforce­
ment told him some of his products may contain banned substances,
Mr. Carter found a DEA-certified lab

sent his products to that

lab, and paid the lab to test those products. He paid for new
rounds of testing around; every.six months and did so. for years.
Each time

the lab issued written reports certifying there was

nothing illegal in any of Mr. Carter’s products. (State’s Exhs.
70C, 70D, 70E, 123; Defense Exh. 5).
But the State averred, the lab got it wrong: There was one
illegal substance—fluoro-ADB—in Mr. Carter's product. (7RR19).
Police seized Mr. Carter’s inventory and charged him with posses­
sion with intent to deliver more than 400 grams of a Penalty
Group .2-A controlled substance. A jury found Mr. Carter guilty.
The jury further sentenced him to 90 years

incarceration and a

$100,000 fine. The conviction was affirmed on direct appeal.
The decision of the Seventh Court of Appeals was affirmed on peti­
tion for discretionary review by the Court of Criminal Appeals
of Texas.
The instant Petition for:.* a Writ of Certiorari follows.

ARGUMENT
A COURT OF APPEALS ERRS IN AFFIRMING A CONVICTION FOR AN OFFENSE
BASED ON TECHNICAL ELEMENTS NOT PROVEN BY THE EVIDENCE AND
OUTSIDE THE SCOPE OF KNOWLEDGE OF AN ORDINARY FACTFINDER.
I.

THE ELEMENTS OF SECTION 481.1031(b)(5) OF THE TEXAS PENAL
CODE.
A, The Complex Language of Section 481.1031(b)(5).
Mr. Carter was found guilty of possessing a significant

amount of synthetic marijuana. The synthetic marijuana in the
4

instant case is outlawed as a Penalty Group 2-A substance in Sec­
tion 481.1031(b)(5) of the Texas Health and Safety Code:
(b) Penalty Group 2-A consists of any material, com­
pound, mixture, or preparation that contains any quanity
of a natural or synthetic chemical substance...listed by
name in this subsection or contained within one of the
structural classes defined in this subsection:
(5) any compound containing a core component substituted
at the 1-position to any extent, and substituted at the
3-position with a link component attached to a group A
component, whether or not the core component or Group
A component are further substituted to any extent, in­
cluding :
Naphthoylindane;
Naphthoylindazole (THJ-018);
Naphthyl methyl indene (JWH-171);
Naphthoylindole (JWH-018);
Quinolinoyl pyrazole carboxylate (Quinolinyl fluoropentyl fluorophenyl prazole carboxylate^;
Naphthoyl pyrazolopyridine; and
Naphthoylpyrrole (JWH-030).
TEX. HEALTH & SAFETY CODE § 481.1031(b)(5).
B. Not Even the Legislators Who Drafted and PassedeSection
481.1031(b)(5) Understand What it Prohibits—Only a
Chemist can Understand the Substance of the Statute.
. ..Most people reading the language of Section 481.1031 quoted
above will quickly pass over the words as their eyes glaze over.
The law was not always so complicated. Before 2015

the statute

simply listed out prohibited substances. Act of May 22, 2015,
84th Leg., R.S., ch. 65

S.B. 173 (amended 2015) (current version

at TEX. HEALTH & SAFETY CODE § 481.1031(b)(5).
The problem, however, was that clandestine chemists would
tweak the molecular structure of a listed substance. The changed
structure resulted in a new substance, which was not on the list
of prohibited substances but was still just as dangerous. The
legislature would meet and revise the penalty group list. But

5

with the legislature only meeting every two years

the chemists

were always able to stay one step ahead of the law. Debate on
Tex. S.B. 173 Before the Senate Crim. Justice Comm., 84th R.S. at
li32:20 (Mar 10, 2015) (recording available from online Tex.. Sen­
ate Archives).
By 2015, the legislature was tired of playing games. It amend­
ed the statute to where clandestine chemists could no longer evade
the law simply by moving a molecule here or there. Id. But those
necessary amendments were beyond the skill of any non-chemist.
Even the legislators who passed the bill did not know what the
statute's language meant. They just knew, from working with the
Senate's resource chemist, that this was the language they needed
to pass for the safety of Texans. Id. at 51:56-52:20 (recording
the author of the bill saying "[r]eally, to me, it's the chemist
who we relied on on these bills more than even the lawyers because
that was what--the code we've been trying to crack.").
II.

THE EVIDENCE DID NOT DIRECTLY ADDRESS EACH ELEMENT OF
SECTION 481.1031(b)(5)—A FAILING NO ONE DISPUTES.
An ordinary person can safely say that a substance is illigal if it:
1) contains a core component
2) that is substituted at the 1-position
3) to any extent
and
4) substituted at the 3-position
5) with a link component
6) which is attached
7) to a group A component

TEX. HEALTH & SAFETY CODE § 481.1031(b)(5). Whatever those words!'
mean, those are the elements of a substance prohibited under Sec­
tion 481.1031(b)(5).

6

A. The Evidence Presented at Trial.
Mr. Carter was found guilty of possessing a substance called
fluoro-ADB. At trial, the State's expert testified about fluoroADB and the three components of Section 481.1031(b)(5). He talked
about the core component, the link component, and the group A
component he found in the fluoro-ADB. (7RR19). He testified fluoroADB 's core component is indazole; its;;group A component is methoxy
dimethyl oxobutane; and its link component is carboxamide. (7RR19).
He reasoned as long as one of each of the components is present,
the drug is illegal. (7RR19). ("[Bjased off of those three combin­
ations, that's why it is able to be controlled under the structur­
al class with how the law is currently written.").
B. The Evidence Not Presented at Trial.
The State's expert never talked about the position of each
component relative to one another. He said fluoro-ADB's core com­
ponent is indazole, but he never said whether the indazole had any
substitutions at the 1-position. He said fluoro-ADB's link componient is carboxamide, but he never said whether the carboxamide is
"substituted at the 3-position" to the indazole (the core compon­
ent). He said fluoro-ADB's group A component was methoxy dimethyl
oxobutane, but he again failed to discuss whether that group A
component was attached to the link component.
No one disputes these failings. At the court below, both sides
were asked to find the testimony discussing how the components
related to each other. Both sides reached the same answer: there
is no such testimony. See State's Supplemental Brief, pg. 7 (Feb.
19, 2019). In its opinion, the court below acknowledged,
7

The prosecutor asked the forensic chemist, "So if we
put all of those together.. .We see the portions of fluoro-ADB that are relevant to this, is that correct?"
The chemist answered, "Correct...[Bjased off of those
three structural class with how the law is currently
written." Sadly, the chemist was not asked to clarify
the latter statement. This is of important because §
481.1031(b)(5) speaks in terms of certain chemicals
having a specific placement within the molecular struc­
ture of an illegal compound.
Carter, No. 07-18-00043-CR, pg. 6.
No one really understands what the words of Section 481.1031
(b)(5) mean, but everyone agrees that the elements of the provi­
sion require both the presence of certain chemicals and that those
chemicals are structured in a certain way relative to one another.
And everyone agrees that the latter set of elements was never di­
rectly established by the evidence.
III.

THE COURT BELOW, ACTING WITHOUT PRECEDENCE, EXPANDED THE
ASSUMPTIONS PERMITTED BY JACKSON V. VIRGINIA INTO THE REALM
OF A HIGHLY TECHNICAL AREAS OF EVIDENCE (MOLECULAR CHEMIST­
RY) OUTSIDE THE UNDERSTANDING OF AN ORDINARY JUROR.
A. The Jaeksonnv** Virginia,Jurisprudence does not Permit a
Reviewing Court to Impart Specialized, Technical Know­
ledge on Ordinary Factfinders.
At its heart, this case involves a sufficiency-of-the-evi-

dence issue. What makes this kind of case unique is that the re­
vised statutory language establishing the elements of drug pos­
session offenses is now highly technical.
When reviewing a legal sufficiency challenge, we view all
of the evidence in the light most favorable to the verdict
to determine whether "any rational trier of fact could have
found the essential elements of the crime beyond a reason­
able doubt."
Ross v. State, 543 S.W.3d 227, 234 (Tex. Grim. App. 2018) (quot­
ing Raster v. State, 275 S.W.3d 512, 517 (Tex. Crim. App. 2009)
(quoting Jackson v. Virginia, 443 U.S. 307, 316 (1979)).

8

Most cases will pass this sufficiency review even if there is
no directtevidence as to every element. Jurors are ordinary people
capable of drawing reasonable ineferences. So, for example, if the
evidence establishes defendant shot the victim in the torso and
the charge:is murder,, then a rational factfinder could infer that
the defendant murdered the victim even without direct evidence
connecting every dot. If the evidence establishes defendant broke
into a car, and a phone that was on the front seat of the car be­
fore the break-in was not there after the break-in, then a ration­
al factfinder could conclude that defendant stole the phone. That
deduction is reasonable and well-within an ordinary person's ex­
periences and common sense. In most criminal cases, a rational
juror can connect the dots

and the court of appeals should as­

sume that is what the jury did in reaching their verdict.
But what about cases where the offense is outside the scope
of an ordinary person's intelligence, experience, and understand?
ing? The "rational trier of fact" envisioned in the Jackson jur­
isprudence has no specialized training. See Jackson, 443 U.S. at
316; Ross, 543 S.W.3d at 234; Raster, 275 S.W.3d at 517,/„There­
fore, a court of appeals errs in imparting onto the factfinder a
specialized understanding of the evidence necessary to support
the verdict.
B. The Court Below Stretched the Jackson Jurisprudence Too
Far When it Applied the Jackson Presumptions to Jurors
Evaluating the ElementScof the Highly Technical Drug
Possesion Statute.
After the 2015 revisions

a rational juror's common sense will

be of little help in understanding whether a defendant committed

9

a drug possession offense. The State cannot say "defendant pos­
sessed fluoro-ADB" and expect an ordinary juror to understand
what that means. More to the point, a discussion about molecular
structure in general does not equip a jury to make any conclusions
about the molecular structure of the specific compound in a case.
An ordinary factfinder cannot rely on his own common sense to make
the leap from the general to the specific in the highly technical
area of molecular chemistry.
And yet, as the court of appeals below observes, the only evi­
dence in the case was very general in nature. For example, as re­
lied upon by the court of appeals below

the State's expert said

things like:
* "we are looking at the structural class, now we are actual­
ly looking at the structure itself and seeing it falls
within a particular combination of groups."
* the "law classifies three different parts of the molecule"
* "based off of those three combinations [of indazole, methoxy dimethyl oxobutane, and carboxamide], that's why it
is able to be controlled under the structural class and
how the law is currently written."
* "I can at least tell you that [fluoro-ADB is] the indazole
ring group"
Seventh Court of Appeals' Opinion, pgs. 7-8. No ordinary juror
will hear a statement like "I can at least tell you that [fluoroADB is] the indazole ring group" and be able to deduce that that
means fluoro-ADB has indazole substituted at either the 1-position
or the 3-position with carboxamide which is attached to methoxy
dimethyl oxobutane.
And it does not matter how many general statements one piles
on. Adding "that's where the fluorine is actually attached to a
particular carbon" or "we now classify a synthetic compound by
the structure" or "there are a whole bunch of different combina10

tions of structures" or a thousand more general comments still
not going to get the jury to the conclusion that fluoro-ADB has
indazole substituted at either the 1-position or the 3-position
with carboxamide which is attached to methoxy dimethyl oxobutane.
See Id., pgs. 7-8. Ten thousand spoons do no good for someone
who needs a knife. It does not matter how many general comments
about chemistry an expert makes when what the jury really needs
is specific testimony about molecular structure required by the
statute it is applying to a defendant.
Jackson contemplates an ordinary person as a rational trier
of fact and imparts upon him the ability to make reasonable de­
ductions from the evidence based on common experience and sense.
Jackson does not, however

relieve the State of its burden in

proving the elements of technical statutes beyond an ordinary
person's comprehension.
The Court of Criminal Appeals of Texas admittedly had a prob­
lem with this case based on Mr. Carter having had his products
tested for illegal substances at a DEA-certified lab and that lab
certifying that no illegal substances were present. At a minimum,
Mr. Carter did not satisfy the mens rea element of the offense.
In other words, he never knowingly possessed a controlled sub­
stance in Penalty Group 2-A. Somehow, without evidence, the court
was able to conclude that each of the elements of the offense had
been met.
In sum, the court below stretched the. Jackson jurisprudence
too far by applying it to highly technical elements of a statute.
It relieved the State of its burden of proof. And there is no
11

j

basis in caselaw to support the court's action. No court expects
an ordinary juror to comprehend molecular chemistry. But that is
the tacit assumption the court below made in affirming the court
of appeals decision and Carter's conviction. Neither Jackson nor
any other case supports extending the sufficiency doctrine so far.

CONCLUSION AND PRAYER FOR RELIEF
Anthony Carter prays that this Court grant this petition for
a writ of certiorari to resolve the Question Presented.
Dated: August 9, 2021

Respectfully submitted,
QLk

A

ANTHONY CARTER

petitioner/

TDCJ No. 02212082
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

12

APPENDIX LIST
Appendix
Court of Criminal Appeals of Texas1 Opinion.

A

Seventh Court of Appeals* Memorandum Opinion

B

Judgment of Conviction by Jury..........................

C

1

